                     U.S. Department of Agriculture

                        Office of Inspector General
                                    Western Region




           Audit Report
    APHIS Animal Care Program
Inspection and Enforcement Activities




                             Report No. 33002-3-SF
                                  September 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




September 30, 2005

REPLY TO
ATTN OF:        33002-3-SF

TO:             W. Ron DeHaven
                Administrator
                Animal and Plant Health Inspection Service

ATTN:           William J. Hudnall
                Deputy Administrator
                Marketing and Regulatory Programs

FROM:           Robert W. Young         /s/
                Assistant Inspector General
                 for Audit

SUBJECT:        APHIS Animal Care Program – Inspection and Enforcement Activities


This report presents the results of our audit of the subject program. Your September 28, 2005, response
to the draft report, excluding attachments, is included as exhibit E of the report. Excerpts from your
response and the Office of Inspector General’s positions have been incorporated into the relevant
sections of the report.

We agree with your management decision for Recommendations 2, 3, 6, 7, 9, 12, 14 through 18, and
20. The actions needed to reach management decision on Recommendations 1, 4, 5, 8, 10, 11, 13, and
19 are identified in the Findings and Recommendations section of the report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days describing
the corrective action taken or planned and the timeframes for implementation of those
recommendations for which management decision has not yet been reached. Please note that the
regulation requires a management decision to be reached on all recommendations within a maximum
of 6 months from report issuance.

We appreciate the cooperation and assistance provided by your staff during our audit.
Executive Summary

Results In Brief                       Animal care and use in the United States is a controversial topic with
                                       varying points of view from the public, animal rights groups, breeders,
                                       research laboratories, and others. In 1966, the Secretary of Agriculture was
                                       given the statutory authority to enforce the Animal Welfare Act (AWA),
                                       which set minimum standards of care and treatment for certain warm-
                                       blooded animals 1 bred for commercial sale, used in research, transported
                                       commercially, or exhibited to the public.

                                       This report presents the results of our audit of the Animal and Plant Health
                                       Inspection Service’s (APHIS) Animal Care (AC) unit, which has the
                                       responsibility of inspecting all facilities covered under the AWA and
                                       following up on complaints of abuse and noncompliance. We also reviewed
                                       AC’s coordination with the Investigative and Enforcement Services (IES)
                                       staff, which provides support to AC in cases where serious violations have
                                       been found. In addition, we evaluated the effectiveness of the Institutional
                                       Animal Care and Use Committees (IACUCs)—the self-monitoring
                                       committees at the research facilities responsible for ensuring compliance
                                       with the AWA.

                                       We found that most AC employees are highly committed to enforcing the
                                       AWA through their inspections and are making significant efforts to educate
                                       research facilities and others on the humane handling of regulated animals.
                                       However, we identified several ways in which AC should improve its
                                       inspection and enforcement practices to ensure that animals receive humane
                                       care and treatment and that public safety is not compromised.

                                       •    Due to a lack of clear National guidance, AC’s Eastern Region is not
                                            aggressively pursuing enforcement actions against violators of the
                                            AWA. 2 We found that regional management significantly reduced its
                                            referrals of suspected violators to IES from an average of 209 cases in
                                            fiscal years (FYs) 2002-2003 to 82 cases in FY 2004. During this same
                                            period, regional management declined to take action against 126 of
                                            475 violators that had been referred to IES. 3 In contrast, the Western
                                            Region declined action against 18 of 439 violators.



1
  Regulated animals are any live or dead dog, cat, monkey (nonhuman primate mammal), guinea pig, hamster, rabbit, or such other warmblooded animal.
It excludes birds, rats of the genus Rattus, mice of the genus Mus, bred for use in research; horses not used for research; and other farm animals such as
livestock and poultry under certain circumstances.
2
  The data in this section, which we compiled from IES records, may include some Horse Protection Act cases, for which AC is also responsible.
3
  IES estimates that these cases cost APHIS at least $291,000 to investigate.


USDA/OIG-A/33002-3-SF                                                                                                                        Page i
                                           We found cases where the Eastern Region declined to take enforcement
                                           action against violators who compromised public safety or animal health.
                                           For example, one AC inspector requested an investigation of a licensee
                                           whose primate had severely bitten a 4-year-old boy on the head and face.
                                           The wounds required over 100 stitches. Although this licensee had a
                                           history of past violations, IES has no record of a referral from AC. In
                                           another case, the Eastern Region did not take enforcement action when
                                           an unlicensed exhibitor’s monkey bit two pre-school children on separate
                                           occasions. The exhibitor failed to provide a sufficient public barrier and
                                           failed to handle the animal to ensure minimal risk to the public.

                                           As a result, the two regions are inconsistent in their treatment of
                                           violators; the percentage of repeat violators (those with 3 or more
                                           consecutive years with violations) is twice as high in the Eastern Region
                                           than in the Western Region. Eastern Region inspectors believe the lack
                                           of enforcement action undermines their credibility and authority to
                                           enforce the AWA.

                                      •    Discounted stipulated fines assessed against violators of the AWA are
                                           usually minimal. Under current APHIS policy, AC offers a
                                           75-percent discount on stipulated fines 4 as an incentive for violators to
                                           settle out of court to avoid attorney and court costs. In addition to giving
                                           the discount, we found that APHIS offered other concessions to
                                           violators, lowering the actual amount paid to a fraction of the original
                                           assessment. An IES official told us that as a result, violators consider the
                                           monetary stipulation as a normal cost of conducting business rather than
                                           a deterrent for violating the law. 5

                                      •    Some VMOs did not verify the number of animals used in medical
                                           research or adequately review the facilities’ protocols and other
                                           records. 6 We found that 13 of 16 research facilities we visited
                                           misreported the number of animals used in research. In reviewing the
                                           protocols, some Veterinary Medical Officers (VMOs) did not ensure that
                                           the facilities provided them with a complete universe of protocols from
                                           which to select their sample. These VMOs told us that the selection
                                           process was based on “good faith” and that they relied on the facilities to
                                           provide them with accurate records. In addition, a VMO did not review
                                           readily available disposition records that disclosed unexpected animal
                                           deaths at a research facility.

                                      •    Some IACUCs are not effectively monitoring animal care activities or
                                           reviewing protocols. During FYs 2002 through 2004, the number of
                                           research facilities cited for violations of the AWA has steadily increased
4
  These fines are not mandatory but agreed to by the violator.
5
  This was also discussed in OIG Audit No. 33600-1-Ch issued in January 1995.
6
  Protocols are the researchers’ proposals for the use of animals in research.

USDA/OIG-A/33002-3-SF                                                                                        Page ii
                                               from 463 to 600 facilities. Most VMOs believe there are still problems
                                               with the search for alternative research, veterinary care, review of painful
                                               procedures, and the researchers’ use of animals.

                                          •    AC’s Licensing and Registration Information System (LARIS) does not
                                               effectively track violations and prioritize inspection activities. The
                                               LARIS database records AC inspections and archives violation histories
                                               for all breeders, exhibitors, research facilities, and others. We determined
                                               that the system generates unreliable and inaccurate information, limiting
                                               its usefulness to AC inspectors and supervisors.

                                          •    FMD and IES did not follow the law and internal control procedures in
                                               their processing and collection of penalties. APHIS’ Financial
                                               Management Division (FMD) did not transfer 81 of 121 delinquent AC
                                               receivables totaling $398,354 to the U.S. Department of Treasury for
                                               collection as required by the Debt Collection Improvement Act of 1996
                                               (see exhibit A). In addition, IES did not comply with APHIS’ internal
                                               cash controls to secure the collection of fines.

Recommendations
In Brief                                       To ensure consistent treatment of violators, we recommend that AC
                                               incorporate specific guidance in AC’s operating manual that addresses
                                               referrals and enforcement actions. We also recommend that AC review
                                               all cases where the regions decline to take enforcement actions against
                                               violators.

                                               To increase the effectiveness of stipulated fines, we recommend that
                                               APHIS eliminate the automatic 75-percent discount for repeat violators
                                               or direct violations, 7 calculate fines based on the number of animals
                                               affected per violation, and seek legislative change to increase fines up to
                                               $10,000 for research facilities.

                                               AC needs to emphasize the need for more detailed reviews of protocols,
                                               including those where animals are not present at the facility during the
                                               inspection. AC also needs to require research facilities to identify
                                               annually the number of protocols in their annual reports, and require the
                                               VMOs to verify the number of animals used in research.

                                               To reduce the number of violations, AC needs to modify regulations to
                                               require IACUCs to conduct more frequent reviews of facilities identified
                                               as repeat violators (3 or more consecutive years with violations). We also
                                               recommend that AC require IACUCs to implement policies to fully train
                                               committee members on protocol review, facility inspections, and the
                                               AWA.

7
    Direct violations have a high potential to adversely affect the health and well-being of the animal.

USDA/OIG-A/33002-3-SF                                                                                            Page iii
                        For LARIS, AC needs to implement temporary measures to address
                        system deficiencies until the new system is operational. Finally, IES and
                        FMD need to follow APHIS policies for internal controls over cash
                        collection, and FMD must timely process receivables for collection.

Agency
Response                In its September 28, 2005, written response to the draft report, the
                        APHIS National Office concurred with the report findings and
                        recommendations, except for Recommendation 13. APHIS’ response is
                        included in exhibit E of this report.

OIG Position            We accept APHIS’ management decision for Recommendations 2, 3, 6,
                        7, 9, 12, 14 through 18, and 20. The actions needed to reach management
                        decision on Recommendations 1, 4, 5, 8, 10, 11, 13, and 19 are identified
                        in the Findings and Recommendations section of the report. Please
                        follow your internal agency procedures in forwarding final action
                        correspondence to the Office of the Chief Financial Officer.




USDA/OIG-A/33002-3-SF                                                                  Page iv
Abbreviations Used in This Report

AC                      Animal Care
ACL                     Audit Command Language (software)
APHIS                   Animal and Plant Health Inspection Service
AWA                     Animal Welfare Act
OCFO                    Office of the Chief Financial Officer
ER                      Eastern Region
FMD                     Financial Management Division
FY                      Fiscal Year
IACUC                   Institutional Animal Care and Use Committee
IES                     Investigative and Enforcement Services
LARIS                   Licensing and Registration Information System
OGC                     Office of the General Counsel
OIG                     Office of Inspector General
RBIS                    Risk-Based Inspection System
USC                     United States Code
USDA                    United States Department of Agriculture
VMO                     Veterinary Medical Officer
WR                      Western Region




USDA/OIG-A/33002-3-SF                                                   Page v
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1         Inspection and Enforcement Activities........................................................................ 4

        Finding 1             The Eastern Region Is Not Aggressively Pursuing Enforcement Actions
                              Against Violators of the AWA................................................................................ 4
                                  Recommendation 1 .......................................................................................... 9
                                  Recommendation 2 .......................................................................................... 9
        Finding 2             Amount of Stipulated Fines Was Not Always a Deterrent to Violators ............... 10
                                  Recommendation 3 ........................................................................................ 12
                                  Recommendation 4 ........................................................................................ 13
                                  Recommendation 5 ........................................................................................ 13
        Finding 3             AC Needs To Improve Its Monitoring of Research Facilities .............................. 13
                                  Recommendation 6 ........................................................................................ 16
                                  Recommendation 7 ........................................................................................ 17
                                  Recommendation 8 ........................................................................................ 17

    Section 2         Institutional Animal Care and Use Committees (IACUCs)..................................... 19

        Finding 4             Some IACUCs Are Not Effectively Monitoring Research Facilities.................... 19
                                 Recommendation 9 ........................................................................................ 23
                                 Recommendation 10 ...................................................................................... 23
                                 Recommendation 11 ...................................................................................... 24
                                 Recommendation 12 ...................................................................................... 24

    Section 3         LARIS System.............................................................................................................. 26

        Finding 5             Information From LARIS Is Not Always Accurate .............................................. 26
                                  Recommendation 13 ...................................................................................... 28
                                  Recommendation 14 ...................................................................................... 29
                                  Recommendation 15 ...................................................................................... 29

    Section 4          Cash Collection Process at IES and FMD ................................................................ 30

        Finding 6             IES Did Not Follow Internal Control Procedures for Cash Collections ............... 30
                                  Recommendation 16 ...................................................................................... 32

USDA/OIG-A/33002-3-SF                                                                                                                 Page vi
                                  Recommendation 17 ...................................................................................... 32
        Finding 7             IES and FMD Delayed Processing Court Orders for AC...................................... 33
                                  Recommendation 18 ...................................................................................... 34
        Finding 8             FMD Did Not Transfer Delinquent Receivables for Collection ........................... 35
                                  Recommendation 19 ...................................................................................... 36
                                  Recommendation 20 ...................................................................................... 36

Scope and Methodology........................................................................................................................ 37

Exhibit A – Summary of Monetary Results ....................................................................................... 40
Exhibit B – Sites Visited ....................................................................................................................... 41
Exhibit C – Research Facilities – Top 50 Violators ........................................................................... 42
Exhibit D – Stipulation Worksheet ..................................................................................................... 44
Exhibit E – Agency Response............................................................................................................... 45




USDA/OIG-A/33002-3-SF                                                                                                                 Page vii
Background and Objectives
Background          In 1966, Congress passed the Animal Welfare Act (AWA), Public Law
                    89-544, which sets the minimum standards of care and treatment for certain
                    warm-blooded animals bred for commercial sale, used in research,
                    transported commercially, or exhibited to the public. The Animal and Plant
                    Health Inspection Service (APHIS), an agency of the U.S. Department of
                    Agriculture (USDA), has the statutory authority to enforce the AWA.
                    APHIS’ Animal Care (AC) unit is responsible for inspecting all facilities
                    covered under the AWA and following up on complaints of abuse and
                    noncompliance. In fiscal year (FY) 2004, the annual appropriations were
                    approximately $16 million.

                    AC is headquartered in Riverdale, Maryland, and has two regional offices
                    located in Raleigh, North Carolina, and Fort Collins, Colorado. Figure 1
                    below shows the geographical coverage for AC’s Eastern and Western
                    Regions.

                    Figure 1: Regional Map of APHIS’ Animal Care Program




                    In FY 2004, the Eastern Region employed 17 inspectors (highly trained AC
                    technicians), 29 Veterinary Medical Officers (VMOs), and 5 supervisors/
                    managers; the Western Region employed 29 inspectors, 25 VMOs, and
                    6 supervisors/managers. VMOs are licensed veterinarians and conduct
                    inspections of all registered research facilities. Both VMOs and inspectors
                    conduct inspections of licensed facilities (i.e., animal dealers, exhibitors, and
                    other entities). At larger research facilities, more than one VMO may
                    conduct the annual inspection.

USDA/OIG-A/33002-3-SF                                                                      Page 1
                    In FY 2004, the 100 VMOs/inspectors nationwide were responsible for
                    inspecting over 8,800 facilities. In addition, some inspectors travel hundreds
                    of miles from one facility to the next. Given the limited number of inspectors
                    and the large number of facilities, AC created a risk-based inspection system
                    (RBIS) in February 1998 to better focus AC’s inspection strategy. Under this
                    system, not all facilities are inspected annually. Some facilities meeting the
                    criteria for low frequency intervals are subject to inspection once every
                    2 years, while others determined to require high frequency inspections are
                    inspected at least 3 times annually.

                    Inspection and Enforcement Process

                    All facilities that use, sell, or transport animals covered by the AWA for
                    regulated activities must be licensed or registered with APHIS. The VMOs
                    and inspectors conduct unannounced inspections of these facilities. If an
                    inspection reveals deficiencies in meeting the AWA standards, the inspector
                    instructs the facility to correct the problems within a given timeframe.

                    Minor violations (e.g., incomplete records or lost identification tags) may be
                    settled with an official notice of warning, while more serious cases (e.g.,
                    animal deaths due to negligence and lack of veterinary care) may be referred
                    to APHIS’ Investigative and Enforcement Services (IES) staff, which
                    provides support to all APHIS programs. IES field personnel conduct
                    comprehensive investigations, track unresolved cases, and coordinate
                    investigative efforts within APHIS and with other Federal and State
                    agencies. IES National Office staff reviews the completed investigative
                    reports and recommends an appropriate action to the AC regional office,
                    which determines the enforcement action based on the gravity of the
                    violation, the violator’s prior history, and the size of the business.

                    Some cases may be resolved at the agency level through agreements
                    (stipulations) with the violator or through formal administrative action
                    before an administrative law judge. Stipulated agreements allow alleged
                    violators to pay a discounted fine, have their license suspended, or both.
                    Cases that warrant formal prosecution undergo Office of the General
                    Counsel (OGC) review for legal sufficiency prior to issuance of a formal
                    administrative complaint. Formal action may result in license suspensions
                    or revocations, cease-and-desist orders, civil penalties, or combinations of
                    these penalties through administrative proceedings.

                    Institutional Animal Care and Use Committees

                    To comply with AWA standards, research facilities that use warm-blooded
                    animals for research or instructional purposes must establish an Institutional
                    Animal Care and Use Committee (IACUC). Committee members are
                    appointed by the research facilities, and the committee must be composed of
USDA/OIG-A/33002-3-SF                                                                   Page 2
                    at least a chairman, a veterinarian familiar with laboratory animal medicine,
                    and an independent member from the local community. The IACUC reviews
                    all requests to use animals in research and the protocols that dictate the
                    experiments. The committees are also required to inspect at least
                    semiannually all animal study areas and housing facilities. Figure 2 shows
                    the numbers of regulated animals used in research during FY 2003.

                    Figure 2: Summary of 1.2 Million Animals Used in Research During FY 2003

                                                     Farm Animals
                                                        166,135           Rabbits
                                                         14%              236,250
                                Primates                                   20%
                                 53,586
                                   5%
                                                                                      Other
                                                                                    Regulated
                                                                                     Animals
                                                                                     199,826
                           Hamsters
                                                                                      17%
                            177,991
                             15%


                                       Guinea Pigs                          Cats
                                        260,809                            25,997
                                                                Dogs        2%
                                          21%
                                                               67,875
                                                                 6%



                    Research facilities are required to report the numbers of animals used each
                    year to AC. In their annual reports, the facilities categorize the types of
                    animals according to whether they endured painful procedures and whether
                    any relief was provided. These categories include “with pain, no drugs for
                    relief,” “with pain, with drugs,” and “no pain, no drugs.”

Objectives          Our objectives were to: (1) evaluate AC inspection and IES investigative
                    activities, (2) determine the effectiveness of the IACUCs in monitoring
                    research facilities, (3) evaluate the penalty assessment and collection
                    process, and (4) assess the integrity of the information systems used to
                    collect AC data.

                    The Scope and Methodology section can be found at the end of this report.




USDA/OIG-A/33002-3-SF                                                                      Page 3
Findings and Recommendations
Section 1           Inspection and Enforcement Activities

                                     While most Animal Care (AC) employees are committed to enforcing the
                                     Animal Welfare Act (AWA) and educating research facilities and businesses
                                     on the humane handling of animals, improved inspection and enforcement
                                     procedures would enhance public confidence that regulated animals receive
                                     humane care and treatment.

                                     Of particular concern, AC management in the Eastern Region is not
                                     aggressively pursuing enforcement actions against violators of the AWA.
                                     The Eastern Region significantly reduced its referrals of suspected violators
                                     to the Investigative and Enforcement Services (IES) unit—from an average
                                     of 209 cases in fiscal years (FYs) 2002-2003 to 82 cases in FY 2004. When
                                     the region did refer cases to IES, management declined to take enforcement
                                     action against 126 of 475 violators (27 percent).

                                     When violators are assessed stipulated fines, the fines are usually minimal
                                     and not always effective in preventing subsequent violations. Under current
                                     APHIS policy, AC gives an automatic 75-percent discount to almost all
                                     violators as a means of amicably reaching an agreement on the amount of
                                     the fines and avoiding court.

                                     Finally, we noted that some VMOs when inspecting research facilities do not
                                     verify the number of animals used in medical research or adequately review
                                     the facilities’ protocols and other records.


Finding 1                            The Eastern Region Is Not Aggressively Pursuing Enforcement
                                     Actions Against Violators of the AWA

                                     During FYs 2002-2004, AC’s Eastern Region significantly reduced its
                                     referrals to the IES unit and declined to take enforcement action in
                                     27 percent 8 of the cases where violations were cited. This occurred because
                                     the National Office did not provide clear direction concerning referrals and
                                     enforcement actions. Without established procedures that demonstrate how
                                     to apply general AC policy to specific cases, regional managers are left to
                                     implement AC guidelines as they deem appropriate. As a result, the regions
                                     are inconsistent in their treatment of violators; the percentage of repeat
                                     violators is higher in the Eastern Region than in the Western Region; and

8
  These numbers do not include cases where IES found no violations or had insufficient evidence to pursue enforcement action; however, the data may
include some Horse Protection Act cases, which fall under AC’s jurisdiction.


USDA/OIG-A/33002-3-SF                                                                                                                 Page 4
                                        Eastern Region inspectors believe the lack of enforcement undermines their
                                        credibility and authority to enforce the AWA.

                                        APHIS has not established national guidelines that specifically address when
                                        AC should refer cases to investigations. However, if a case is referred and
                                        IES determines that violations have occurred, the AWA 9 authorizes APHIS
                                        to impose civil penalties up to $2,750 per violation. APHIS may also
                                        suspend, for up to 21 days, the license of any facility 10 that violates
                                        provisions of the AWA. According to the AWA, the agency should give
                                        “due consideration to the appropriateness of the penalty with respect to the
                                        size of the business of the person involved, the gravity of the violation, the
                                        person’s good faith, and the history of previous violations.” 11

                                        Violations of the AWA are disclosed and confirmed through two separate
                                        processes: AC inspections and IES investigations. If AC inspectors identify
                                        serious violations during an inspection or if deficiencies remain uncorrected
                                        at a follow-up inspection, AC can refer the case to the IES staff. After IES
                                        conducts a comprehensive investigation, the case is returned to the
                                        appropriate AC region for enforcement action.

                                        Minor infractions may be settled with an enforcement action such as an
                                        official notice of warning, while more serious cases may be resolved at the
                                        agency level through stipulated fines against the violator or through formal
                                        administrative action before an administrative law judge. Stipulated
                                        agreements allow alleged violators to pay a greatly discounted fine, have
                                        their license suspended, or both.

                                        Decrease in the Number of Referrals to IES

                                        Based on IES data, we determined that AC’s Eastern Region significantly
                                        reduced the number of referrals to IES. Between FYs 2002-2003, the Eastern
                                        Region referred an average of 209 cases; in FY 2004, the region referred 82.
                                        In response, regional management told us that the best way to achieve
                                        compliance is through education, and enforcement actions such as fines and
                                        stipulations can at times promote hostility. The Assistant Regional Director
                                        for AC told us, “We do not want to punish violators for their past
                                        history…enforcement is a tool of last resort; it is better to get compliance
                                        first, if you can.”

                                        According to the IES Eastern Regional Director, AC advised him at the
                                        beginning of FY 2004 that he would not be receiving as many referrals as he
                                        had in the past. As a result, he told us that many suspected violators have not
                                        been investigated. A National Office official agreed that “the inspector and

9
   7 U.S.C. 2149(a) dated March 25, 2004. The penalty was adjusted for inflation to $2,750 in June 2000.
10
   This excludes research facilities because they are not required to obtain licenses; they only register with AC.
11
   7 U.S.C. 2149(b) dated March 25, 2004.

USDA/OIG-A/33002-3-SF                                                                                                Page 5
                                     supervisor are in the best position to know whether a case should be referred
                                     to investigations.”

                                     The Eastern Region’s decision to reduce the number of referrals appears to
                                     be arbitrary, even though cases should be reviewed based on their own
                                     merits. For example, in March 2004 a VMO recommended that AC
                                     management refer to IES a licensee whose primate had severely bitten a
                                     4-year-old boy on the head and face. The wounds required over 100 stitches.
                                     Although this licensee had a history of past violations, IES has no record of
                                     a referral from AC.

                                     The IES Eastern Regional Director also said, “The excessive focus on
                                     education has been very de-motivating to both inspectors and investigators
                                     who want the suspects investigated.” One VMO told us, “Education is only
                                     part of compliance. Those willing to get educated are not usually the
                                     problem facilities. Too much emphasis is placed on education at the expense
                                     of enforcement.” Due to regional management’s position on referrals and
                                     enforcement, the VMOs believe they are now losing credibility with the
                                     facilities, and their morale is low. Over 53 percent of the Eastern Region
                                     VMOs—licensed veterinarians—we interviewed believe that the region does
                                     not support their work or does not enforce the AWA as aggressively as it
                                     should. 12

                                     The Western Regional Director for AC stated, “AC’s mission is to achieve
                                     compliance through inspections and education. However, if education does
                                     not have the desired impact on the violators’ activities, then enforcement is
                                     the best way to achieve compliance. It punishes the violator and is a
                                     deterrent to others. In the Western Region, we do not decline any cases if
                                     there is evidence of violations in the investigation report. At a minimum, we
                                     would issue a formal warning.”

                                     Failure To Take Enforcement Actions

                                     To determine how the AC regions enforced the AWA, we reviewed IES’
                                     Final Action Report for FYs 2002-2004. Eastern Region enforcement
                                     guidelines state that sanctions are necessary to dissuade violators from
                                     committing the same violations. However, we noted that during this period
                                     the Eastern Region issued only 38 stipulated fines to violators for a total of
                                     $88,001, while the Western Region issued 143 stipulated fines for $187,060.

                                     In addition, the Eastern Region declined to pursue action against 126 of
                                     475 violators (27 percent). In contrast, the Western Region declined action
                                     on 18 of 439 violators (4 percent). We reviewed the cases for 45 of the
                                     126 violators to determine if the Eastern Region declined to take action for
12
  In comparison, 100 percent of the VMOs in the Western Region believed the region supported their work (although one expressed some concerns about
occasional differences of opinion concerning enforcement actions against research facilities).

USDA/OIG-A/33002-3-SF                                                                                                                 Page 6
                                          valid reasons. We agree that management had valid reasons, such as the case
                                          number was a duplicate, for declining action against five violators. However,
                                          no action was taken against 22 violators even after an IES investigation had
                                          confirmed violations of the AWA. 13 For example, no enforcement action
                                          was taken against an unlicensed exhibitor whose monkey bit two pre-school
                                          children on separate occasions. The exhibitor failed to provide a sufficient
                                          public barrier to ensure minimal risk to the public.

                                          The IES Eastern Region Director stated, “IES has been frustrated when we
                                          send investigators to review a referral, and then AC decides to drop the case
                                          without taking action.” IES estimates that these cases (related to the
                                          126 violators) cost APHIS at least $291,000 to conduct. In view of APHIS’
                                          limited manpower, this is a wasteful use of valuable resources.

                                          Considering the difference in philosophies between the regions on how to
                                          achieve compliance with the AWA, we concluded that AC was not treating
                                          violators consistently nationwide. We found no National guidelines
                                          addressing when AC should decline enforcement action after an IES
                                          investigation has documented violations of the AWA.

                                          Higher Number of Repeat Violators in the Eastern Region

                                          Some VMOs stated that because facilities are realizing there is no
                                          consequence for violating the AWA, the number of repeat violators in the
                                          Eastern Region is increasing. We reviewed several cases where regional
                                          management declined to take action against repeat violators and found
                                          several examples where public safety or animal health was compromised.

                                          In one case in FY 2002, AC declined to take action against a zoo with a
                                          history of violations. Later in the year, a child scaled a barrier fence around
                                          the zoo’s jaguar exhibit and was injured by a jaguar. Although the zoo
                                          replaced the fence with a taller one, the fence was still too low. In September
                                          2002, after two jaguars escaped, AC requested another investigation. A
                                          subsequent inspection identified another fence-related problem—this time
                                          with the zoo’s perimeter fence. An intruder was able to gain access through
                                          the perimeter fence and cut the jaguars’ fence, allowing them to escape.
                                          Although one jaguar was recaptured, another was killed. After three separate
                                          investigations, the zoo paid a $3,000 settlement in December 2002. Since
                                          then, regional management has declined to take additional enforcement
                                          action, even though AC has reported serious violations at the zoo.

                                          Focusing only on research facilities, we found that the number of Eastern
                                          Region facilities with violations in FY 2003 and 2004 was more than twice
                                          as many as those in the Western Region, 264 versus 106 respectively. We

13
     For the 18 remaining violators, we were unable to determine the reasons for AC’s declinations since IES retains its investigative reports for only 1 year.

USDA/OIG-A/33002-3-SF                                                                                                                             Page 7
                                        reviewed the top 50 repeat violators in the nation and found that despite the
                                        Eastern Region’s emphasis on education to achieve compliance, 88 percent
                                        of the violators were located in the Eastern Region. (See exhibit C for a
                                        complete list of the top 50 violators. Table 1 shows that the Eastern Region
                                        has a proportionately higher rate of repeat violators than the Western
                                        Region.)

                                        Table 1: Research Facilities – Top 50 Violators in FYs 2002-2004

                                             Region           Average No. of                % Research    No. of Repeat   % Repeat
                                                             Research Facilities             Facilities     Violators     Violators
                                             Eastern               650                         60%              44          88%
                                             Western                  450                      40%             6            12%

                                                Total                1,100                    100%             50          100%


                                        Although AC can temporarily revoke licenses for breeders and exhibitors,
                                        this is not the case with research facilities. The AWA 14 does not authorize
                                        “the Secretary, during inspection, to interrupt the conduct of actual research
                                        or experimentation…” Therefore, it is more critical for AC to take
                                        enforcement actions against research facilities that are repeat violators. If
                                        facilities believe there is no consequence for violating the AWA, then
                                        credibility becomes an issue. Considering the number of repeat violators—
                                        those that continue to violate year after year—enforcement should be used as
                                        a deterrent.

                                        Clearer National Direction Needed

                                        The problems described above occurred because the National Office
                                        delegated enforcement responsibility to the regions but failed to provide
                                        them with clearly defined direction concerning investigative referrals and
                                        enforcement actions. The regions rely on the policy manuals 15 to conduct
                                        inspections. However, the manuals do not establish detailed procedures for
                                        enforcement. Without established procedures that demonstrate how to
                                        effectively and consistently apply general AC policy to specific cases,
                                        regional managers are left to implement AC guidelines as they deem
                                        appropriate.

                                        The former Assistant Deputy Administrator told us, “In the past, the AC
                                        National Office was much more involved with enforcement and
                                        investigations. Now, all responsibility has been turned over to the regions,
                                        which opens the door for inconsistency. Cases can be dropped at the regional
                                        level and never receive National Office attention. When we had more
                                        oversight at the National Office, we had more consistency.”


14
     7 U.S.C. 2143(a)(6)(A)(iii) dated March 25, 2004.
15
     AC’s Policy Manual, Dealer Inspection Guide, and Research Facility Inspection Guide.

USDA/OIG-A/33002-3-SF                                                                                                       Page 8
                    To promote consistency between the regions, reinforce the credibility and
                    authority of VMOs/inspectors, and reduce the percentage of repeat violators,
                    the National Office should incorporate specific guidance in AC’s operational
                    manuals that addresses referrals and enforcement actions.

Recommendation 1

                    Incorporate specific guidance in AC’s operating manual that addresses
                    referrals and enforcement actions in order to ensure consistent treatment of
                    violators.

                    Agency Response. To ensure AC’s consistency in the treatment of
                    violators, AC will incorporate into all the Inspection Guides a flow chart that
                    provides enforcement action guidelines for inspection reports. AC’s Eastern
                    and Western Regional Directors have collaborated to create one flow chart
                    that will be used nationally. The Manual Team will be responsible for
                    inserting the enforcement action flow chart into the inspection guides by
                    November 30, 2005.

                    OIG Position. We agree with APHIS’ corrective action. To achieve
                    management decision, APHIS needs to provide us with a copy of the
                    flowchart.

Recommendation 2

                    Review all cases where the regions decline to take enforcement actions
                    against violators.

                    Agency Response. If there is evidence of a violation, but AC’s Regional
                    Director recommends that prosecution be “denied/declined,” the AC Deputy
                    Administrator or Assistant Deputy Administrator and the Investigative
                    Enforcement Services (IES) Director or Assistant Director will review and
                    approve the “denied/declined” final action prior to closing the case. Also, if
                    AC or IES propose different final actions, the AC Deputy Administrator or
                    Assistant Deputy Administrator and the IES Director or Assistant Director
                    will review the aggravating and mitigating factors and, together, will
                    determine the appropriate final action. The policy is now in place. IES will
                    maintain in its tracking system the reason for “denied/declined.”

                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to provide a copy of the
                    new policy to the Office of the Chief Financial Officer (OCFO).




USDA/OIG-A/33002-3-SF                                                                    Page 9
Finding 2                                Amount of Stipulated Fines Was Not Always a Deterrent to
                                         Violators

                                         APHIS’ stipulated fines assessed against violators of the AWA are usually
                                         minimal. Under current policy, APHIS gives an automatic 75-percent
                                         discount to almost all violators—including research facilities—as a means of
                                         amicably reaching an agreement on the amount of the fines and avoiding
                                         court. As a result, violators now consider the monetary stipulation as a
                                         normal cost of conducting business rather than as a deterrent for violating
                                         the AWA.

                                         The AWA 16 authorizes APHIS to impose civil penalties of up to $2,750 per
                                         violation. Although these stipulated fines are one of the few tools APHIS
                                         can use against violators, the AWA authorizes APHIS to reduce the fines
                                         depending upon the circumstances (e.g., the person’s good faith or history of
                                         previous violations).

                                         APHIS officials told us that they offer an automatic 75-percent discount on
                                         stipulated fines as an incentive for violators to settle the cases to avoid
                                         attorney and court costs. However, for repeat violators or direct violations, 17
                                         APHIS should offer no discount because of the serious nature of the
                                         offenses. For example, in FY 2002, a zoo in Texas was offered a discounted
                                         stipulation totaling $5,600 (the original fine was $22,500) for violations that
                                         led to the death of a rhinoceros and a separate incident that resulted in the
                                         death of five gorillas from chlorine gas.

                                         In addition, an OGC official told us that discounted fines can be problematic
                                         if the violator declines the stipulation and the case is forwarded to OGC for
                                         processing. If there is a significant difference between APHIS’ stipulation
                                         offer and OGC’s recommended fine, it may be difficult to justify the higher
                                         amount.

                                         In addition to giving the discount, we found that APHIS offered other
                                         concessions, making the fines basically meaningless.

                                         •    Using Part of Fine to Improve Facility. An exhibitor failed to construct
                                              an adequate bear pen, which resulted in a bear biting a volunteer worker.
                                              In addition, the exhibitor was cited for 2 other serious violations,
                                              13 moderate violations, and 1 minor violation.



16
     7 U.S.C. 2149(a) and 2149(b) dated March 25, 2004. The penalty was adjusted for inflation to $2,750 in June 2000.
17
     Direct violations have a high potential to adversely affect the health and well-being of the animal.

USDA/OIG-A/33002-3-SF                                                                                                    Page 10
                                               APHIS calculated the total fine at $13,200. After the 75-percent
                                               discount, the exhibitor agreed to pay $3,300—$1,650 in cash and $1,650
                                               to repair the facility. The exhibitor benefited by the transaction because
                                               he could have been required to pay the $3,300 plus the cost of replacing
                                               his perimeter fence. His stipulated fine was actually discounted by
                                               87.5 percent (75 percent discount plus 12.5 percent for repairs).

                                         •     Waiving Portion of Discounted Fine. An exhibitor who failed to provide
                                               veterinary care for his animals was cited for 5 serious violations,
                                               15 moderate violations, and 3 minor violations.

                                               APHIS calculated the total fine at $17,325. After the 75-percent
                                               discount, the exhibitor agreed to pay $4,300—$1,000 in cash and $3,300
                                               to be suspended provided that the exhibitor remain in compliance for
                                               2 years. In effect, the exhibitor paid 6 percent of the original fine.

                                         For FYs 2002-2004, we reviewed 76 of 181 cases in which violators agreed
                                         to a stipulated fine. We found that 45 of 59 18 (76 percent) continued to
                                         commit violations of the AWA, while 28 of the 45 (62 percent) committed
                                         similar or the same violations.

                                         Larger Fines Needed for Research Facilities

                                         APHIS uses a stipulation table to calculate fines for a wide variety of
                                         entities, from a small farmer that breeds dogs to a research facility with
                                         billions in assets (see exhibit D). The table categorizes the violations into
                                         three levels: minor, moderate, and serious. The fines are then calculated
                                         based on the level of the violation and on business assets. However, for
                                         businesses with assets above $100,000, the fines for violations do not
                                         increase, making the penalties negligible for research facilities with assets in
                                         the billions of dollars.

                                         In reviewing the table, we noted that a very small breeder with no previous
                                         history of violations is assessed $110 for a minor infraction. In comparison,
                                         a research facility or university with a history of serious violations and court
                                         cases is assessed $550 for the same offense. With the 75-percent discount,
                                         this is an insignificant fine for research facilities. For example:

                                         •     In FY 2002, a university in Illinois with assets totaling $6.2 billion 19 was
                                               cited for 12 serious violations related to veterinary care issues and the
                                               death of a monkey and a pig. The facility agreed to a discounted fine of
                                               $9,400 (the original fine was $37,675). Later in FY 2002, and again in
                                               FY 2004, the facility came under investigation for violating the AWA.

18
     For 14 of the 76 cases, we were unable to determine if follow-up inspections were conducted because these facilities were unlicensed.
19
     2004 Consolidated Financial Statements.

USDA/OIG-A/33002-3-SF                                                                                                                        Page 11
                                        •      In FY 2003, at a university in New York, researchers experimented on a
                                               female dog without realizing the animal was pregnant. The dog then
                                               gave birth to eight puppies, which the researchers improperly euthanized
                                               with expired medication and without any sedative to relieve the pain.
                                               Although the facility had $6.7 billion 20 in assets, APHIS offered it a
                                               discounted stipulation totaling $2,000 (the original fine was $7,150).

                                        The Western Regional Director for AC agreed that the difference in fines
                                        between a small exhibitor and a research facility is negligible. Also, an OGC
                                        official agreed that the maximum fine set by the AWA may be low for
                                        research facilities. For exhibitors and breeders, AC can revoke licenses in
                                        addition to issuing fines. However, because research facilities only register
                                        with AC (i.e., there are no licenses to revoke), there is a definite need for
                                        higher fines to enforce the AWA.

                                        During FYs 2002 through 2004, 2 of the top 50 research facility violators
                                        paid monetary fines totaling $11,400 combined. These same facilities were
                                        later cited for violations during AC inspections. APHIS needs to reconsider
                                        its stipulation policy by assessing larger fines against research facilities with
                                        significant assets. To accomplish this, APHIS needs to seek legislative
                                        change to increase fines for these facilities.

                                        APHIS should also calculate fines by taking into account the number of
                                        animals affected by each violation. Currently, APHIS bases fines solely on
                                        the number of violations. According to IES, most investigations involve
                                        violations that affect multiple animals. In addition, an OGC official told us
                                        that the AWA does not preclude APHIS from charging fines on a violation
                                        per animal basis. For example, if two animals are affected under one
                                        violation, APHIS could fine the facility on two counts.

Recommendation 3

                                       Eliminate the automatic 75-percent discount when calculating fines for repeat
                                       violators or direct violations.

                                       Agency Response. The automatic 75 percent reduction in civil penalties
                                       has been eliminated when it involves repeat violators or direct violations. The
                                       Penalty Assessment Work Group, formed in August 2004 by the AC/IES
                                       Management Teams, met in August 2005 to determine new guidelines for
                                       assessing penalties. Penalties assessed are based on such factors as history of
                                       violations, severity of violations, and willingness to work toward compliance
                                       once a violation has been noted.


20
     2000 Consolidated Financial Statements.

USDA/OIG-A/33002-3-SF                                                                                         Page 12
                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to provide a copy of the
                    new penalty guidelines to OCFO.

Recommendation 4

                   Seek legislative change to increase fines up to $10,000 for research facilities.

                   Agency Response. A legislative change will need to be initiated by the
                   Secretary of Agriculture.

                    OIG Position. We are unable to accept APHIS’ management decision on
                    this recommendation. The agency needs to provide us with its plans,
                    including timeframes, to draft the recommended legislation for the
                    Secretary.

Recommendation 5

                   Calculate fines based on the number of animals affected per violation, when
                   appropriate.

                   Agency Response. The Penalty Assessment Work Group, which met in
                   August 2005 to review and update penalty assessments, developed new
                   internal guidelines that IES will use to determine when calculating fines on a
                   per animal basis.

                    OIG Position. We agree with APHIS’ corrective action. To achieve
                    management decision, APHIS needs to provide us with a copy of the new
                    penalty guidelines.




Finding 3           AC Needs To Improve Its Monitoring of Research Facilities

                    In monitoring research facilities, some VMOs did not verify the number of
                    animals used in medical research, adequately sample the facilities’ protocols,
                    or review other available records. This occurred because the inspection
                    manual is too general, and the VMOs relied on the facilities to provide
                    accurate and pertinent records. As a result, APHIS is misinformed on the
                    number of regulated animals used in research, and has less assurance that
                    protocols are properly completed, approved, and adhered to for the purpose
                    of ensuring the health and safety of the animals.



USDA/OIG-A/33002-3-SF                                                                    Page 13
                                       Regulations 21 require research facilities to report annually “the common
                                       names and the numbers of animals upon which research, teaching, testing, or
                                       experimentation was conducted….”

                                       In addition, AC’s Research Facility Inspection Guide 22 (inspection guide)
                                       states that VMOs “are responsible for conducting a thorough inspection of
                                       IACUC-approved protocols and changes to protocols, the IACUC’s
                                       monitoring of protocol activity, and the protocol approval process.” VMOs
                                       may decide to review all protocols or select a representative sample. To
                                       determine if the procedures outlined in the protocols are being followed,
                                       VMOs can ask the IACUCs, 23 the self-monitoring oversight committees at
                                       each facility, how they track the number of animals approved versus the
                                       number actually used by the principal researcher. The VMOs can then verify
                                       this by reviewing computer files, acquisition and disposition records, dead
                                       animal records, and inventory cards. 24

                                       We accompanied 11 VMOs and their supervisors to 16 research facilities in
                                       California, Maryland, and New York. At each facility, we (1) reviewed the
                                       IACUC’s activities by reading the meeting minutes, (2) observed some
                                       VMOs selecting sample protocols for inspection, (3) verified the number of
                                       animals used in research and reported by the facility, and (4) with assistance
                                       from the VMOs, reviewed some protocols to determine if the facilities
                                       provided complete explanations for using animals in the “with pain, no
                                       drugs” experiments.

                                       We also surveyed 30 of the 65 VMOs to obtain their views about the
                                       effectiveness of the AC program and to determine if the IACUCs adequately
                                       reviewed the protocols, avoided unnecessary duplication of experimentation,
                                       conducted an adequate search for alternative methods, 25 etc. Based on these
                                       interviews and our site visits, we believe that the VMOs are highly
                                       committed to enforcing the AWA through their inspections and are making
                                       significant efforts to educate the facilities on the humane handling of
                                       animals. However, we found that some improvements are needed in two
                                       areas:

                                       Verification of the Number of Animals Reported by Facilities

                                       We found that 13 of 16 research facilities that we visited misreported the
                                       number of animals used in research. We selected these 16 facilities because
                                       they were cited for violations of the AWA in the past 3 years; 15 conducted
                                       research involving pain or distress to the animals without drugs for relief.
                                       Although the AWA requires research facilities to report annually the number
21
   9 CFR 2.36 (b)(5-8), dated January 1, 2002.
22
   Dated April 2001.
23
   Institutional Animal Care and Use Committee.
24
   Research Facility Inspection Guide, Chapter 6.3, page 6, dated April 2001.
25
   Alternative methods that incorporate the replacement, reduction, or refinement of animals used in research and that minimize animal pain and distress.

USDA/OIG-A/33002-3-SF                                                                                                                        Page 14
                    of animals used in research, AC’s inspection guide does not specifically
                    require the VMOs to verify the reported numbers. As a result, APHIS is
                    being misinformed about the actual number of regulated animals used in
                    research. Examples are:

                    •   A research facility in New York reported only three nonhuman
                        primates—the number of animals purchased during that current fiscal
                        year. During our site visit, we found that the facility’s census records
                        showed there were 42 additional nonhuman primates that underwent
                        research at this facility. The facility agreed to resubmit an amended
                        report.

                    •   Another research facility in New York reported only nine rabbits in its
                        most current annual report. However, during our site visit we saw one
                        dog in a cage and records indicated 15 rabbits were used during the
                        reporting period.

                    •   A major research facility in California was unable to provide us support
                        for the 24,000 animals it reported. Staff at the facility informed us that
                        they compiled data on the number of animals used through an electronic
                        survey of its researchers. However, the response rate was estimated to
                        be from 75 to 90 percent, meaning that no one knows how many animals
                        were actually used in research.

                    Although facilities are responsible for reporting the number of animals used
                    in research, members of the IACUCs were usually responsible for compiling
                    the number for the institution (see finding 4).

                    Review of Protocols and Other Records

                    In FY 2000, APHIS conducted a survey of its 49 VMOs to solicit their
                    opinions on how to improve inspections of IACUCs. Ten of 49 respondents
                    thought that VMOs should focus more on (1) comprehensively evaluating
                    protocols involving surgery, pain, and distress and comparing them to
                    medical and study records and (2) reviewing all of the required IACUC
                    records.

                    After interviewing the VMOs and accompanying them on site visits, we
                    noted weaknesses in related areas. Examples are:

                    •   Universe of Protocols. The inspection guide allows VMOs the choice of
                        reviewing all the protocols for regulated animals or reviewing a
                        representative sample, such as category E protocols (those involving
                        invasive procedures without drugs). We noted that some VMOs did not
                        ensure that the facilities provided them with the total number of
                        protocols (universe) from which to select their sample. These VMOs told
USDA/OIG-A/33002-3-SF                                                                   Page 15
                        us that the selection process was based on “good faith” and that they
                        relied on the facilities to provide them with accurate records.

                        Other VMOs were more thorough in assessing the IACUCs’ protocol
                        approval process. These VMOs reviewed all of the IACUC’s written
                        meeting minutes, which document discussions of each protocol and the
                        basis for approving them. They also reviewed the researchers’ notes and
                        medical records to ensure that they were provided all pertinent protocols.

                    •   Limited Sampling of Protocols. Two VMOs informed us that they only
                        review protocols for animals that are present at the facility during their
                        inspections. Because of this limited sampling, they may not uncover
                        problems with the other protocols, such as failure to conduct an adequate
                        search for alternatives or to document that the experiment did not
                        duplicate previous research. Without reviewing a representative sample
                        of protocols, it is unclear how these inspectors could assess an IACUC’s
                        protocol approval process.

                    •   Review of Other Records. One of the VMOs mentioned above also did
                        not review guinea pig disposition records that disclosed unexpected
                        animal deaths—some due to drug overdose, others with no explanation.
                        According to facility staff, the overdoses were caused by the
                        miscalibration of the device used to inject a drug. By not reviewing the
                        records, the inspector did not know there was a problem with the
                        equipment or whether the problem was fixed.

                        Regulations currently require the maintenance of acquisition and
                        disposition records for dogs and cats; those records are not required for
                        other regulated species. However, if records are available for the other
                        species, we believe that inspectors should review them, at least on a
                        sample basis, to determine if there have been any unusual animal deaths.

                    To ensure that inspectors verify the number of animals used in medical
                    research, adequately sample the facilities’ protocols, and review other
                    available records, AC should revise its inspection guide. The guide should
                    require the verification of the number of animals reported in the annual
                    reports and emphasize the need for more detailed reviews of protocols and
                    other available animal records. APHIS should also require the research
                    facilities to identify annually the number of protocols under each of the
                    pain/no pain categories in their annual reports.

Recommendation 6

                    Revise the Research Facility Inspection Guide to require VMOs to verify the
                    number of animals reported in the research facilities’ annual reports.

USDA/OIG-A/33002-3-SF                                                                   Page 16
                    Agency Response. We agree this is important information. The
                    appropriate sections of the RFIG will be updated by November 30, 2005. We
                    will also revise Policy #17 to further assist research facilities in completing
                    reports properly. The draft revision to Policy #17 will be completed by
                    October 1, 2005.

                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to forward the revised
                    Research Facility Inspection Guide to OCFO.

Recommendation 7

                    Emphasize the need to adequately sample protocols, including those where
                    animals are not present at the facility during the inspection. Also, emphasize
                    the need to review disposition records, if available, for regulated animals
                    other than dogs or cats.

                    Agency Response. We agree with the need to do complete inspections
                    of research facilities. The RFIG contains instructions for the VMOs to
                    sample protocols where animals are not present and to review other available
                    records. However, we will add additional emphasis on using the RFIG for
                    these reviews by November 30, 2005.

                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to forward a copy of the
                    additional emphasis to OCFO.

Recommendation 8

                    Require the research facilities to identify annually the number of protocols
                    under each of the pain/no pain categories in their annual reports.

                    Agency Response. AC will propose a change to the regulations in order
                    to require that research facilities include this information in their annual
                    reports. AC has a proposed rule workplan on the annual reports, which is
                    presently being reviewed by APHIS’ Regulatory and Analysis Branch. It
                    will be modified to include this proposed amendment. APHIS cannot predict
                    the timing, nor the final outcome, of notice and comment rulemaking.

                    We agree it is important for VMOs to review a representative sample of
                    protocols during their inspections. Currently, research facilities are required
                    to provide a list of proposed activities to be reviewed to each Institutional
                    Animal Care and Use Committee (IACUC) member. VMOs will use these
                    lists as the universe from which to select sample protocols while these
                    regulatory changes are pending. VMOs will begin using this approach by
                    October 1, 2005.
USDA/OIG-A/33002-3-SF                                                                    Page 17
                    OIG Position. We agree with APHIS’ corrective action. To achieve
                    management decision, APHIS needs to revise the Research Facility
                    Inspection Guide to require the VMOs/inspectors to use the list of proposed
                    activities as the universe from which to select their sample protocols, in the
                    event the proposed regulatory changes are not incorporated in the rules.




USDA/OIG-A/33002-3-SF                                                                   Page 18
Section 2              Institutional Animal Care and Use Committees (IACUCs)


Finding 4                                Some IACUCs Are Not Effectively Monitoring Research Facilities

                                         Some IACUCs are not effectively monitoring animal care activities,
                                         protocols, or alternative research methods. This situation exists because
                                         (1) the IACUCs are only required to conduct facility reviews on a
                                         semiannual basis, (2) IACUCs experience a high turnover rate, and (3) some
                                         members are not properly trained. In very few cases, the facilities are
                                         resistant to change, showing a general disregard for APHIS regulations. As a
                                         result, the facilities are not conducting research in compliance with the
                                         AWA or, in some cases, not providing humane conditions for research
                                         animals.

                                         The AWA 26 requires research facilities to establish an IACUC. The
                                         committee members are generally employees of the facilities and consider
                                         their activities as collateral duties. The committees must be composed of at
                                         least a chairman, a veterinarian familiar with laboratory animal medicine, 27
                                         and an independent member from the community. Committee members must
                                         “possess sufficient ability to assess animal care, treatment, and practices in
                                         experimental research.” The committees are required to inspect at least
                                         semiannually all animal study areas and housing facilities, focusing on
                                         practices involving pain to animals and the condition of the animals.

                                         OIG’s previous audit 28 of APHIS’ enforcement of the AWA found that the
                                         activities of the IACUCs did not always meet the standards of the AWA.
                                         Some IACUCs did not ensure that unnecessary or repetitive experiments
                                         would not be performed on laboratory animals. In addition, the audit found
                                         numerous problems with protocols and reporting.

                                         To assist the IACUCs in accomplishing their responsibilities, APHIS and the
                                         National Institutes of Health issued detailed laboratory guidelines on animal
                                         care. Nonetheless, we noted some IACUCs are still having problems in such
                                         areas as adequately monitoring researchers for compliance with their
                                         protocols (e.g., the search for alternatives, review of painful procedures, and
                                         unnecessary duplication of research) and following up on the correction of
                                         deficiencies. During FYs 2002 through 2004, the number of research
                                         facilities cited for violations of the AWA has steadily increased. In FY 2002,
                                         463 of the 1,030 facilities were in violation. In FY 2004, that number
                                         increased to 600 of 1,176 facilities.

26
   7 U.S.C. Ch.54 §2143 (b).
27
   At smaller facilities, this individual is sometimes a contractor.
28
   Audit No. 33600-01-Ch issued in January 1995.

USDA/OIG-A/33002-3-SF                                                                                         Page 19
                    IACUC Monitoring of Research Facilities

                    In FY 2000, APHIS conducted a survey of 40 VMOs and their 9 supervisors
                    to assess their opinions on the effectiveness of the IACUCs. In general,
                    VMOs concurred that IACUCs need to improve the search for alternatives,
                    the review of painful procedures, and monitoring the researchers’ use of
                    animals to ensure compliance with approved protocols and standard
                    operating procedures. The survey concluded that “IACUCs seem to be doing
                    well at functions related to setting up the administrative structure and
                    developing the process but not as well at monitoring and follow through.”

                    In FY 2004, we re-surveyed 30 VMOs and their supervisors to determine if
                    the IACUCs improved their performance. Although most VMOs believed
                    that the IACUCs improved in certain areas, VMOs still found a total of
                    6,801 violations at these facilities from FYs 2002-2004. The VMOs believe
                    there are still problems with the search for alternatives, veterinary care,
                    review of painful procedures, and the researchers’ use of animals. Using
                    AC’s database, we compiled and analyzed the data for all inspections
                    conducted at research facilities from FYs 2002-2004. Table 2 shows the
                    most frequent violations cited by the VMOs.

                    Table 2: The Most Frequent Violations at Research Facilities – FYs 2002-2004
                                                                                                          % Facilities
                                                                                No. of         No. of
                                                                                                             With
                           Regulation Violated by Research Facility            Violators     Violations
                                                                                                          Violations
                                                                                  (A)            (B)
                                                                                                          (A)/1,100*

                        Search for Alternatives. Researchers
                        considered alternatives to painful procedures
                                                                                 322            391          29%
                        and documented the availability of the
                        alternatives (9 CFR 2.31(d)(1)(ii)).
                        Reporting. IACUC submitted reports of its
                        evaluations of animal facilities to the                  281            329          26%
                        institutional official (9 CFR 2.31(c)(3)).
                        Veterinary Care. Research facility maintained
                        adequate veterinary care that includes
                                                                                 202            277          18%
                        appropriate methods and availability (9 CFR
                        2.33(b)(2)).
                        Protocols. Protocols contained a complete
                        description of the proposed use of animals               188            256          17%
                        (9 CFR 2.31(e)(3)).
                        Housekeeping. Research facilities met
                        standards of care regarding housekeeping for             102            157           9%
                        rabbits (9 CFR 3.56(c)).

                        * The average number of research facilities during FYs 2002-2004 was 1,100.




USDA/OIG-A/33002-3-SF                                                                                       Page 20
                    We reviewed AC files for 58 research facilities; some of the violations we
                    noted were:

                    •   An IACUC in California approved a protocol for the production of
                        antibodies using approximately 80 rabbits. Instead, 1,024 rabbits were
                        used under this protocol. IES is currently investigating this case.

                    •   Another research facility in California failed to give a post-surgical
                        nonhuman primate analgesic to relieve unnecessary discomfort and pain
                        after a craniotomy in which four burr holes were made into the cranium.
                        It also failed to provide post-surgery veterinary care.

                        At the same facility, a post-surgical lamb was observed to have difficulty
                        breathing and was frothing from the mouth. The lamb was not monitored
                        until an AC inspection identified it to be in distress. A second post-
                        surgical lamb was found dead. This facility was referred to OGC for
                        legal action.

                    •   A research facility in Illinois failed to provide adequate veterinary care,
                        which resulted in the death of a primate and a pig. The IACUC also
                        failed to approve protocols or to review significant changes to protocols.
                        The fine was $9,400.

                    •   At a research facility in Indiana, AC inspectors found proof that a
                        summer intern was improperly trained to perform operations on animals.
                        Evidence indicated that the trainer left the area during another intern’s
                        first surgery. The fine was $4,000.

                    According to our analysis, 33 of the top 50 (66 percent) research facility
                    violators in the nation were educational institutions suggesting that IACUCs
                    at universities are less effective (see exhibit C). The VMOs explained that
                    universities usually have more protocols, the protocols are more varied, and
                    students are less experienced in good laboratory practices. Even though the
                    top 50 facilities were cited for numerous violations over a 3-year period,
                    records indicate that only nine were referred to IES for investigation.

                    In FY 2003, AC received a petition from the Association of Veterinarians
                    for Animal Rights, which cited frequent violations concerning the search for
                    alternatives. AC responded to the petition by conducting inspections at all
                    veterinary schools in the nation. The inspections focused on teaching
                    protocols and cited numerous violations in the search for alternatives,
                    unnecessary duplication of research, and justification for the number of
                    animals used.

                    We also learned that in a very few cases, the facilities were resistant to
                    change, showing a general disregard for APHIS regulations. VMOs
USDA/OIG-A/33002-3-SF                                                                    Page 21
                                         informed us that some institutional officials were not supportive of IACUC
                                         activities and APHIS regulations, resulting in significant issues with animal
                                         care at the facilities. In one example, the research facility ignored the
                                         VMO’s reports of violations and did not take corrective action for several
                                         years. In cases of negligence of fiduciary duty, APHIS should seek an OGC
                                         opinion to determine if institutional officials can be held personally liable.

                                         Inaccuracies in Annual Reports

                                         We also found that the majority of research facilities we reviewed
                                         misreported the numbers of animals used in research. Some facilities did not
                                         follow APHIS guidelines for completing their annual reports, while other
                                         facilities are not using the numbers of animals supported by their records. As
                                         a result, APHIS is misinformed about the true number of animals used
                                         annually in research facilities throughout the nation (as noted in finding 3).

                                         Regulations 29 state, “The annual report shall state the common names and
                                         the numbers of animals upon which teaching, research, experiments or tests
                                         were conducted…” AC Policy 30 as well as the instructions attached to the
                                         template annual report state that animals used in multi-year studies will be
                                         counted once each year.

                                         We visited 16 registered research facilities that were cited for violations in
                                         the past 3 years. 31 After comparing the most current annual report submitted
                                         by each facility to the supporting documents on hand, we found that 13 of
                                         the 16 research facilities misreported the numbers of animals used in their
                                         research. Of these facilities, nine had underreported, three had overreported,
                                         and we could not determine the actual number of animals used in the
                                         remaining facility. Some facilities agreed to resubmit an amended annual
                                         report.

                                         Although research facilities must be registered, APHIS has no authority to
                                         revoke the registration of a noncompliant research facility. Even
                                         administrative law judges may find it difficult to terminate or refuse to
                                         renew registrations in cases where serious or repeat violations occur because
                                         USDA does not have the authority to interrupt the conduct of research.

                                         We concluded that IACUCs need to improve their monitoring of researchers
                                         for compliance with the protocols (e.g., the search for alternatives, review of
                                         painful procedures, unnecessary duplication of research), in following up on
                                         the correction of deficiencies, veterinary care, and in reporting accurate
                                         annual reports to APHIS. This is imperative because although AC can
                                         temporarily revoke licenses for breeders and exhibitors, this is not the case

29
   9 CFR 2.36 (b) (5-8), dated January 1, 2002.
30
   Animal Care Policy 17, dated March 17, 1999.
31
   Fifteen facilities conducted research involving pain or distress to animals without the use of drugs for relief.

USDA/OIG-A/33002-3-SF                                                                                                 Page 22
                                         with research facilities. The AWA 32 does not authorize “the Secretary,
                                         during inspection, to interrupt the conduct of actual research or
                                         experimentation…” Therefore, it is more critical for AC to take enforcement
                                         actions against research facilities that violate the AWA (refer to finding 1).

Recommendation 9

                                         Modify regulations to require the IACUCs at research facilities identified as
                                         repeat violators (those with 3 or more consecutive years with violations) to
                                         conduct more frequent reviews.

                                         Agency Response. Facilities with 3 or more consecutive years with
                                         violations will necessarily be subject to more frequent inspections, which is
                                         currently AC’s standard procedure. AC Risk-Based Inspection System
                                         (RBIS) will flag all such facilities and ensure that they are inspected more
                                         frequently and to provide more support for enforcement.

                                         OIG Position. We accept APHIS’ management decision on this
                                         recommendation. No final action is needed. Although we recommended that
                                         IACUCs identified as repeat violators conduct more frequent reviews, this
                                         may not improve compliance given that the current IACUC reviews are
                                         ineffective. However, with APHIS’ limited resources, it is paramount that
                                         the IACUCs’ self-monitoring function operates as intended, enabling AC’s
                                         VMOs to broaden their coverage of other entities such as breeders and
                                         exhibitors.

Recommendation 10

                                         Require IACUCs to implement policies that fully train committee members
                                         on protocol review, facility inspections, and the AWA.

                                         Agency Response. We agree that educating the IACUCs is an important
                                         component of the self-monitoring system. This may also assist with
                                         Recommendation #9. AC will modify Policy #15 to indicate it is our
                                         interpretation that this regulation also applies to IACUC members. The draft
                                         will be done by October 1, 2005.

                                         OIG Position. We are unable to accept APHIS’ management decision on
                                         this recommendation. The agency needs to clarify which regulation it is
                                         referring to, and it needs to provide us with a copy of the modified
                                         Policy #15.




32
     7 U.S.C. 2143(a)(6)(A)(iii), dated March 25, 2004.

USDA/OIG-A/33002-3-SF                                                                                        Page 23
Recommendation 11

                    Instruct research facilities to ensure that the numbers of animals reported in
                    the annual report are accurate.

                    Agency Response. As noted in our reply to Recommendation #6, we
                    agree this is important information. The RFIG will be amended to instruct
                    inspectors to verify the accuracy of the numbers of animals reported. The
                    Manual Team will be responsible for updating the Research Facility
                    Inspection Guides and inserting the three clarifications listed in the response
                    to Recommendations 6, 7, 8, and 11. The Guide can be updated, printed, and
                    distributed by May 1, 2006. In the interim, the Animal Care Management
                    Team will distribute an instruction memo to the VMOs with the
                    clarifications they need to use immediately. Policy #17 will be amended to
                    further assist research facilities in this endeavor.

                    OIG Position. We agree with APHIS’ corrective action. To achieve
                    management decision, APHIS needs to provide us with a copy of the revised
                    Policy #17.

Recommendation 12

                    Seek an OGC opinion to determine if institutional officials can be held
                    personally liable in cases of negligence of fiduciary duty.

                    Agency Response. The following verbatim response was obtained from
                    the Office of General Counsel on September 6, 2005:

                    “Under section 2139 of the Animal Welfare Act (AWA), ‘the act, omission,
                    or failure of any person acting for or employed by a research
                    facility…within the scope of his employment or office, shall be deemed the
                    act, omission, or failure of such research facility,…as well as of such
                    person.’ Section 2139 applies to alleged violations of the AWA or
                    regulations by any person that is engaging in AWA regulated activities.
                    Under the AWA, APHIS only has jurisdiction over persons who are
                    engaging in regulated activities as dealers, research facilities, exhibitors,
                    carriers, and intermediate handlers. Employees of dealers, research facilities,
                    exhibitors, carriers, and intermediate handlers are not liable for any
                    violations committed by their employers, unless the employee is also
                    engaging in AWA regulated activities. Accordingly, section 2139 does not
                    apply to institutional officials who oversee regulated activities of a research
                    facility, but are not engaged in AWA regulated activities themselves. In
                    cases where an institutional official is charged by the research facility with
                    oversight of regulated activities and does not fulfill that duty adequately, the
                    research facility, and not the individual, is responsible for any violations of
                    the AWA or the regulations that may occur.”
USDA/OIG-A/33002-3-SF                                                                     Page 24
                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to forward the OGC opinion
                    to OCFO.




USDA/OIG-A/33002-3-SF                                                              Page 25
Section 3               LARIS System

Finding 5                                 Information From LARIS Is Not Always Accurate

                                         AC’s Licensing and Registration Information System (LARIS) lacks certain
                                         key features that prevent it from effectively tracking violations and
                                         prioritizing inspection activities. According to the former Assistant Deputy
                                         Administrator, who was responsible for the implementation of LARIS, the
                                         system was never fully tested when it was first implemented in 1994 and it
                                         has not undergone continued computer maintenance. As a result, the system
                                         generates unreliable and inaccurate information, limiting its usefulness to
                                         AC inspectors and supervisors.

                                         Departmental Manual 3200-001 33 states that, “agencies will…provide for
                                         maintenance in the operation phase [of an application system]” which
                                         includes running, changing, or repairing the system as necessary to ensure
                                         that the system still meets user and security requirements.

                                         APHIS acknowledges LARIS as one of its mission-critical systems and has
                                         continued to use and support the system for the past 10 years; however,
                                         OIG’s 1995 audit of APHIS’ enforcement of the AWA found that
                                         information contained in LARIS was generally unreliable and inaccurate.
                                         LARIS did not effectively track violations and prioritize inspections. It also
                                         did not correctly show the extent of the violations disclosed by the
                                         inspections.

                                         LARIS is a database used by AC personnel to record licensing and
                                         registration of all breeders, exhibitors, and other facilities and to document
                                         their inspection and violation histories. A subsystem of LARIS, the Risk-
                                         Based Inspection System (RBIS), calculates the minimum number of
                                         inspections that are needed annually based on a continual risk assessment of
                                         each facility’s violation history. After reviewing several reports, we
                                         determined that LARIS does not always track inspections correctly and
                                         contains inaccurate data.

                                         •     Misclassifies Attempted Inspections. 34 RBIS erroneously treats
                                               “attempted” inspections as “completed” inspections. To compensate for
                                               this, most inspectors use their own ad hoc systems (e.g., spreadsheets,
                                               notes, calendars) to track inspections.

                                         •     Unable to Track Re-inspections. RBIS does not track the dates for
                                               upcoming “re-inspections,” the required inspections that follow-up on

33
     “Management Application Systems Life Cycle Management,” Chapters 2.4(A) and 2.6(C)(2), dated March 3, 1988.
34
      An attempted inspection occurs when an authorized person from the facility is not available to accompany the inspector and no inspection is conducted.

USDA/OIG-A/33002-3-SF                                                                                                                         Page 26
                                              the facilities’ corrective action for direct violations. Again, inspectors
                                              use their ad hoc systems to schedule re-inspections, which may not
                                              always be a fail-proof alternative.

                                              AC’s guidelines 35 state, “a complete or partial re-inspection of a facility
                                              with a direct [violation] must be completed no more than 45 days after
                                              the correction date.” For FYs 2003 and 2004, we identified 43 inspection
                                              reports that cited direct violations and found that 13 re-inspections were
                                              not conducted within the required 45-day re-inspection period. 36

                                        •     Missing Edit Checks. LARIS does not have basic edit checks—
                                              parameters programmed into the system so that it does not accept
                                              illogical data. For example, the system lacks the ability to screen out
                                              meaningless dates in its inspection reports. Figure 5, which is a facsimile
                                              of a LARIS report, highlights this problem (note the dates of the
                                              inspections).

                                              Figure 5: LARIS – Missing Edit Checks
                                                        INSPECTION FREQUENCY by NEXT INSPECTION DATE
                                                                                           01-NOV-2004
                                                   Site           Last           Type of Inspection            Next                  Inspection
                                                               Inspection                                   Inspection               Frequency
                                                    X        30-MAY-2030              ROUTINE              30-MAY-2031         One Time Per Year

                                                    X        18-AUG-2994              ROUTINE              18-AUG-2995        Two Times Per Year



                                        •     Outdated Information. Two facilities that had cancelled their licenses
                                              and were no longer listed on LARIS’ Current Licensees Report in June
                                              2004 still appeared on the Inspection Frequency Report 5 months later.
                                              Figure 6 is a facsimile of the Inspection Frequency Report dated
                                              November 2004, which shows the former licensees as requiring
                                              inspections.

                                             Figure 6: LARIS – Outdated Information
                                                          INSPECTION FREQUENCY by NEXT INSPECTION DATE
                                                                                             14-NOV-2004
                                                    Site           Last           Type of Inspection            Next                  Inspection
                                                                Inspection                                   Inspection               Frequency
                                                      X        13-FEB-2001              ROUTINE             13-FEB-2004        One Time Per 3 Years

                                                      X         31-JUL-2003             ROUTINE             31-JUL-2004         One Time Per Year




35
     Research Facility Inspection Guide, Chapter 7.6, page 1, dated April 2001.
36
     Although 11 of these re-inspections were eventually conducted, we could find no evidence that the remaining 2 were conducted.

USDA/OIG-A/33002-3-SF                                                                                                                      Page 27
                                      •    Discrepancies Between LARIS Reports. When the VMOs and inspectors
                                           conduct site visits, they prepare inspection reports and enter them
                                           directly into LARIS. However, the number of violations recorded in the
                                           inspection reports does not always match the information listed in
                                           LARIS’ Violation History Report, which should summarize all
                                           violations. For example, one facility was cited for 11 AWA code
                                           violations in the inspection report, while 88 violations were recorded in
                                           the history report. AC was unable to provide us with a definitive
                                           explanation for the difference.

                                      We interviewed 30 of the 65 VMOs 37 to determine if the LARIS and RBIS
                                      systems served their needs in performing their duties. Of these, 29 VMOs
                                      expressed dissatisfaction with the systems. VMOs commented that the
                                      systems are slow, cumbersome, and not user friendly and that the
                                      information is inaccurate. In response, AC’s computer specialist explained
                                      that “some of the ‘bugs’ [in LARIS] are technical, and some are just code
                                      that is not working as intended.”

                                      We learned that AC contracted a computer programmer and formed a task
                                      force of inspectors and staff to create a new database by September 2005. In
                                      addition to addressing the flaws we identified with LARIS, plans for the new
                                      system include being more user friendly when querying inspection reports,
                                      correcting inaccurate data in reports, improving the users’ ability to retrieve
                                      information, and complying with the electronic Freedom of Information Act
                                      requirements. However, to avoid the problems we identified with LARIS,
                                      AC needs to ensure that the new system is properly tested and maintained.

Recommendation 13

                                     Implement temporary measures to address attempted inspections and re-
                                     inspections until the new system is operational.

                                     Agency Response. We understand the basis for this recommendation and
                                     agree with its intent; however, the new system, OACIS (On-line Animal Care
                                     Information System) is scheduled to be operational in March 2006. We do
                                     not believe the implementation of temporary measures that would take some
                                     weeks to develop and implement and would then be in place for 6 months or
                                     less is either cost effective or an efficient use of scarce resources.

                                     OIG Position. We are unable to accept APHIS’ management decision on
                                     this recommendation. Although many inspectors may be aware of LARIS’
                                     limitation in tracking re-inspections and attempted inspections, there may be
                                     others (especially new inspectors) who are not aware of the limitation. The
                                     agency should send a memorandum or e-mail to its VMOs/inspectors,

37
     The 65 VMOs include AC supervisors from both regions.

USDA/OIG-A/33002-3-SF                                                                                      Page 28
                    warning them of the limitation of LARIS in tracking re-inspections and
                    attempted inspections.

Recommendation 14
                    Ensure that the new system is adequately tested, and that system users are
                    able to provide feedback during development.

                    Agency Response. In late 2004, AC formed the OACIS integrated team,
                    which consists of field inspectors, supervisors, AC IT support, and
                    management personnel. Team members met in December 2004 to define and
                    develop users’ requirement for the OACIS project. They provided user input
                    to the OACIS development contractors regarding what was needed in the new
                    system. The system requirement was completed in February 2005 and it was
                    reviewed and validated by the team. The system will consist of several
                    modules. Each module will be developed and tested for functionalities
                    according to the specifications defined in the user’s requirement. The
                    contractor will test the functional requirement of each program unit within
                    each module as well as the integrated components for all modules for the
                    system. The OACIS integrated team will be involved in testing similar
                    functionalities to validate the contractor deliverables as soon as the test
                    module(s) becomes available to ensure the user’s requirement is met. Final
                    module(s) acceptance will be based on the user testing. The project is
                    expected to be completed by March 2006.

                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to forward documentation
                    that the new system was adequately tested to OCFO.

Recommendation 15

                    Provide a plan for performing system maintenance on the new system.

                    Agency Response. AC included a request in the fiscal year 2006 budget
                    to have the contractors developing OACIS also to provide this service, until a
                    new employee is hired to maintain it in-house.

                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to forward AC’s request in
                    the FY 2006 budget regarding maintenance on the new system to OCFO.




USDA/OIG-A/33002-3-SF                                                                   Page 29
Section 4                Cash Collection Process at IES and FMD

                                        There are two types of monetary assessments for violators of the AWA—the
                                        stipulated fine and the court-ordered penalty. IES may issue a stipulation,
                                        depending on the nature of the violation. More serious cases are sent to an
                                        administrative law judge who can suspend or revoke the violator's USDA
                                        license and impose a court-ordered penalty.

                                        During our review, the IES National Office was responsible for collecting
                                        stipulated fines. If the payments became past due, IES forwarded the fines to
                                        APHIS’ Financial Management Division (FMD) in Minneapolis, which has
                                        agency-wide debt collection responsibilities. FMD also collects court-ordered
                                        penalties.

                                        We found that IES and FMD did not follow internal controls when
                                        processing and collecting fines and penalties. Penalties that are intended to
                                        deter violations of the AWA become less effective unless APHIS correctly
                                        processes and promptly collects fines.


 Finding 6                              IES Did Not Follow Internal Control Procedures for Cash
                                        Collections

                                        The IES National Office did not implement several basic controls over its
                                        cash collections, which totaled $1.8 million 38 during FYs 2003 and 2004.
                                        The Deputy Director was unfamiliar with the requirements of APHIS’
                                        Accounting and Budget Manual (Manual) and, therefore, failed to
                                        implement certain internal controls. As a result, collections were not
                                        deposited timely, increasing their risk of being lost or stolen.

                                        In addition to its investigative responsibilities, the IES National Office
                                        collected stipulated fines for all APHIS programs. Initially, we reviewed
                                        cash collections and deposits for the AC program for FYs 2003 and 2004.
                                        After we noted some problems with internal controls, we expanded our
                                        review to include IES collections for all APHIS programs to determine if the
                                        problems were systemic. We found the following:

                                        •     IES Did Not Log Collections Upon Receipt. Although the collection
                                              clerk opened the mail and made deposits, she did not maintain collection
                                              logs. A complete accounting of all collections cannot be assured without
                                              proper controls.


38
     This amount consists of fines from all APHIS programs as of July 2004.

USDA/OIG-A/33002-3-SF                                                                                       Page 30
                                            The manual 39 states, “A log of collections and deposits should be
                                            maintained at each office and should include a sequential number; the
                                            name and address of the payee; the purpose, amount and date of the
                                            collection; the check or money order number; information to cross-
                                            reference the collection…and the date the collection was transmitted to
                                            the lockbox.”

                                      •     IES Did Not Reconcile Collections. Since IES did not maintain a
                                            collection log, it could not reconcile collections to deposits.
                                            Reconciliations are needed to ensure that no collections were lost or
                                            omitted prior to deposit.

                                            The manual 40 states, “A third employee, preferably an office manager
                                            should daily reconcile collections to amounts transmitted and initial the
                                            log indicating no deviations.”

                                      •     IES Did Not Promptly Deposit Collections. IES accumulated stipulated
                                            fines and deposited them at intervals ranging from once a week to as
                                            long as 6 weeks. On average, checks were held about 16 to 20 days.
                                            Even though the collection clerk stated that she deposited checks two to
                                            three times a week, we could find no evidence to support her claim.
                                            When collections are not deposited promptly, the potential for loss,
                                            misplacement, or misuse is increased.

                                            The manual 41 states, “Employees must deposit collections or transmit
                                            collection for deposit within 24 hours, if practical, but no later than the
                                            second workday from the date of receiving the collection.”

                                      •     IES Had No Separation of Duties Over Cash Collections. The collection
                                            clerk responsible for receiving and recording collections also prepared
                                            and mailed all deposits. A basic principle of internal controls is dividing
                                            critical functions between two or more persons, a technique often
                                            referred to as separation of duties. Errors are more likely to be detected
                                            when duties are separated, and fraud is less likely to occur when its
                                            success depends upon collusion.

                                            The manual 42 states, “A separate employee should enter the collections
                                            into the accounting system and transmit the collections.”

                                      We discussed these internal control weaknesses with the IES Director and
                                      Deputy Director. The Deputy Director explained that she was unaware of the
                                      separation of duties for cash collections as well as other requirements in the

39
   Chapter 10, page 46, dated October 1, 2002.
40
   Chapter 10, page 46, dated October 1, 2002.
41
   Chapter 10, page 44, dated October 1, 2002.
42
   Chapter 10, page 46, dated October 1, 2002.

USDA/OIG-A/33002-3-SF                                                                                        Page 31
                    manual. The IES Director told us he plans to transfer the collection function
                    to FMD, which has agency-wide debt collection responsibilities.

Recommendation 16

                    Instruct IES to provide a plan and timeframe for transferring collections to
                    FMD.

                    Agency Response. Beginning in October 2004, IES transferred the
                    collection activity for APHIS issued civil penalty stipulations to FMD. IES’
                    stipulation letter to the alleged violator requests that he or she send payment
                    directly to the APHIS Lockbox in St. Louis, Missouri. FMD processes the
                    payments and updates the IES case management tracking system with the
                    collection data.

                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to forward to OCFO a
                    sample copy of IES’ stipulation letter showing that payments are now sent to
                    the APHIS lockbox in St. Louis, Missouri.

Recommendation 17

                    Until collections are delegated to FMD, instruct IES to implement internal
                    controls over its cash collections in accordance with APHIS’ Budget and
                    Accounting Manual.

                    Agency Response. Beginning in October 2004, IES instituted a number
                    of internal controls to ensure integrity in the civil penalty collection process.
                    While over 90 percent of the civil penalty payments go directly to FMD, IES
                    still receives a small number of checks for civil penalties assessed at the
                    ports of entry and mailed in after the traveler has left the port, as well as
                    checks received by the Office of General Counsel for cases resolved by the
                    USDA administrative law judges. IES has instituted controls in accordance
                    with the APHIS Budget and Accounting Manual.

                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to provide a copy of IES’
                    new internal controls to OCFO.




USDA/OIG-A/33002-3-SF                                                                     Page 32
Finding 7                                IES and FMD Delayed Processing Court Orders for AC

                                         The IES National Office held court-ordered penalties on average 3 months in
                                         FY 2003 and 7½ months in FY 2004 before sending them to FMD for
                                         collection. FMD also compounded the delays by not establishing the
                                         receivables timely. This occurred because IES and FMD did not prioritize
                                         the activity. As a result, court-ordered fines were delayed in accruing
                                         interest, and penalty assessments were more difficult to collect due to the
                                         age of the receivables.

                                         APHIS’ Budget and Accounting Manual 43 defines the key factors necessary
                                         to successfully manage debts owed to APHIS: “(1) promptly record, in a
                                         centralized book (system) of record, all amounts due to us after we have
                                         performed services or provided goods; (2) quickly collect all the money due
                                         to us; (3) follow up quickly, forcefully, and persistently when debts become
                                         delinquent.”

                                         Before FMD can legally establish a receivable against a violator, it must
                                         receive a court order. We reviewed FMD’s process for establishing
                                         receivables and found that IES accumulated court orders before sending
                                         them to FMD in batches once or twice a year. In FY 2003, the average time
                                         was 3 months from when a court order was issued to when it was received
                                         by FMD. In FY 2004, the average time was about 7½ months. When we
                                         questioned IES about these significant delays, the IES Deputy Director told
                                         us she was unaware that the court orders were not sent to FMD on a monthly
                                         basis. Although IES did not have a specific policy about timeliness in
                                         forwarding court orders, management had an unofficial policy to deliver the
                                         files on a monthly basis.

                                         Once the court orders were received from IES, FMD took an additional
                                         3 months to establish receivables. FMD management did not prioritize the
                                         timely establishment of receivables, and the debt management specialist
                                         responsible for establishing receivables was assigned to work on other tasks.
                                         Figure 8 shows the delays in establishing receivables. The average time to
                                         establish a receivable for FYs 2003 and 2004 was about 123 days and
                                         335 days, respectively.




43
     Chapter 12, page 1, dated October 1, 2002.

USDA/OIG-A/33002-3-SF                                                                                       Page 33
                     Figure 8: Delays in Establishing Receivables
                         450
                         400
                         350
                         300
                         250
                         200
                         150
                         100
                          50
                           0
                                                FY 2003                                    FY 2004
                        Days
                                 Number of days FMD held court orders before establishing receivables
                                 Number of days IES held court orders before sending to FMD


                     Penalties are intended to deter unlawful practices of the AWA. If APHIS
                     takes up to 10 months to process court-ordered penalties, the probability of
                     collection is reduced and the penalties become less effective. To prevent
                     this, APHIS needs to streamline the process for establishing receivables.

 Recommendation 18

                     Implement a plan that would expedite the process for establishing
                     receivables of court-ordered fines.

                     Agency Response. As of December 2004, IES instituted procedures to
                     expedite the processing of Administrative Law Judge (ALJ) orders to FMD
                     for processing as follows:

                     IES sends all ALJ orders (Consent Decisions, Decision and Orders) to FMD
                     every Friday. A cover sheet is attached to each docket showing: docket
                     number, case number, violator, civil penalty, person sending, phone number,
                     and date. This specifies the amount to be collected and alleviates the need
                     for FMD to interpret the court order. A copy of the order and cover sheet are
                     filed with the case. IES maintains a spreadsheet with the information from
                     the cover sheet as well as a copy of the cover sheet for tracking purposes.

                     OIG Position. We accept APHIS’ management decision on this
                     recommendation. For final action, APHIS needs to provide its new
                     procedures to OCFO.




USDA/OIG-A/33002-3-SF                                                                                   Page 34
Finding 8                                FMD Did Not Transfer Delinquent Receivables for Collection

                                          FMD did not transfer 81 of 121 delinquent AC receivables totaling
                                          $398,354 to the U.S. Department of Treasury for collection. This occurred
                                          because FMD officials did not consider the collection of receivables to be a
                                          priority. As a result, FMD may be forced to write off some receivables, and
                                          it will become increasingly difficult to collect the others unless immediate
                                          action is taken.

                                          The Debt Collection Improvement Act of 1996 requires agencies, “to
                                          transfer a debt or claim that has been delinquent 180 days or more to
                                          Treasury for collection.”

                                          We reviewed all outstanding receivables 44 and found that FMD did not
                                          transfer 81 delinquent receivables—most between 2 and 5 years old—to
                                          Treasury for collection (see figure 9 for an aging summary). We learned that
                                          FMD planned to write off two receivables totaling $14,192 because they
                                          were nearly 10 years old. The probability of collecting the remaining balance
                                          of $384,162 ($398,354 less $14,192) is significantly reduced as the
                                          receivables age.

                                          Figure 9: Aging of 81 Delinquent AC Receivables


                                                     5+ years


                                                    2-4 years


                                               19-24 months


                                               13-18 months


                                                7-12 months

                                                     Cases       0   10    20        30       40        50       60



                                          The debt collection manager stated that in FYs 2001 and 2002, FMD’s focus
                                          was implementing a new accounting information system, the Foundation
                                          Financial Information System. While this reason may explain the delays for
                                          FYs 2001 and 2002, it does not explain the 57 cases that were 3 to 10 years
                                          delinquent before FFIS was implemented.


44
     This includes all outstanding receivables as of June 3, 2004.

USDA/OIG-A/33002-3-SF                                                                                        Page 35
                    In addition, FMD management told us that it did not have access to pertinent
                    information such as the violators’ tax identification numbers, which are
                    needed in order to transfer the delinquent receivables. However, the LARIS
                    database contains tax identification numbers for licensees and registrants,
                    and FMD should have been able to obtain this information from AC.

Recommendation 19

                    Establish a timeframe to transfer the $398,354 in receivables over 180 days to
                    Treasury for collection.

                    Agency Response. FMD was not required to transfer 14 of the
                    81 delinquent AC receivables totaling $134,192.82 to Treasury for collection.
                    The remaining 67 receivables, totaling $264,161.18, have been reviewed and
                    appropriate steps have been taken including referring debts to Treasury Cross
                    Servicing (CS), writing off the debts, or collections on payment plans with
                    many leading to debts paid in full.

                    Debts that had been previously referred to Treasury Offset Program (TOP)
                    have been forwarded to CS and will be removed from TOP as soon as CS
                    submits the debt to TOP.

                    OIG Position. We agree with APHIS’ corrective action. To achieve
                    management decision, the agency needs to provide us with a list of the
                    14 receivables and explain the reasons why it did not transfer them to
                    Treasury.

Recommendation 20

                    Establish a formal system to share pertinent information such as tax
                    identification numbers between AC and APHIS’ debt collection unit.

                    Agency Response. FMD has developed a process for obtaining tax
                    identification numbers for stipulations and dockets, which are received
                    without this information from IES. Modifications have been made to the IES
                    tracking system to allow FMD more access to violator data including the tax
                    identification numbers. An IES staff member has been designated as a
                    contact person to assist FMD with questions on documents received and its
                    tracking system. FMD also extended its research abilities by using
                    Choicepoint AutotrackXP data beginning in May 2005 to research tax
                    identification numbers.

                    OIG Position. We accept APHIS’ management decision on this
                    recommendation. For final action, APHIS needs to provide a copy of its new
                    procedure to OCFO.

USDA/OIG-A/33002-3-SF                                                                   Page 36
Scope and Methodology
                                   We conducted a nationwide review of AC’s inspection activities and
                                   enforcement of the AWA during FYs 2003 through 2004. We expanded our
                                   scope to include FY 2002 data because we wanted to further evaluate the
                                   pattern of enforcement between the AC regions. As part of our audit, we
                                   reviewed the pertinent laws and regulations governing the AC program and
                                   the current policies and procedures AC had established as guidance for
                                   inspections and enforcement.

                                   We performed fieldwork at the AC and IES National Offices in Riverdale,
                                   Maryland; the AC and IES regional offices in Fort Collins, Colorado, and
                                   Raleigh, North Carolina; the FMD Financial Services Branch located in
                                   Minneapolis, Minnesota; and a total of 16 research facilities in California,
                                   Maryland, and New York (see exhibit B for a complete listing of audit sites).
                                   We performed audit fieldwork from May 2004 through January 2005.

                                   We used Audit Command Language (ACL) software to select our samples
                                   and to analyze research facility violations. Using ACL and data imported
                                   from the LARIS database, we determined the States with the most research
                                   facilities, research facilities with the largest number of violations cited
                                   during our scope period for each region, and the most common types of
                                   violations at research facilities.

                                   To accomplish our audit, we:

                                   •    Interviewed AC Personnel. We interviewed AC National Office officials
                                        and 30 45 of 65 VMOs (15 from each region) to obtain information about
                                        the AC program and IACUCs.

                                   •    Reviewed AC Inspection Reports and Files. At each AC regional office,
                                        we judgmentally reviewed files of research facilities that were cited for
                                        the largest number of violations, as of the date of fieldwork. We sampled
                                        inspection reports for 28 facilities in the Western Region and 30 facilities
                                        in the Eastern Region to determine if annual inspections and re-
                                        inspections were conducted timely.

                                   •    Reviewed Enforcement Actions. At IES’ National Office, we obtained
                                        the final action data for all AC investigations closed from FYs 2002-
                                        2004.


45
  We intended to interview all 49 VMOs and their supervisors who participated in AC’s 2000 survey regarding the effectiveness of the IACUCs;
however, only 30 of the 49 VMOs still worked in the same capacity.

USDA/OIG-A/33002-3-SF                                                                                                         Page 37
                                            In the Eastern Region, the data identified 809 individuals with completed
                                            or closed investigations. Of these, IES determined that 475 violated the
                                            AWA, which required the region to decide whether to take enforcement
                                            action. AC declined to take action against 126. At IES, we reviewed
                                            45 of these to determine the Eastern Region’s reasons for closing the
                                            cases without taking enforcement action. 46

                                            In the Western Region, the data identified 572 individuals with
                                            completed or closed investigations. Of these, IES determined that
                                            439 violated the AWA, which required the region to decide whether to
                                            take enforcement action. AC declined to take action against 18.

                                      •     Reviewed Files for Discounts Offered by AC. Also at IES, we reviewed
                                            the files for 76 of 181 registrants and licensees that agreed to pay
                                            stipulated fines to determine the amount of the discounts offered by AC.
                                            We then used ACL to identify violations or repeat violations subsequent
                                            to the issuance of the stipulation.

                                      •     Visited 16 Research Facilities. The States of California and New York
                                            have the most registered research facilities in the Nation. 47 For these
                                            States, we judgmentally selected research facilities that were cited for
                                            violations during each FY between 2002 and 2004, and that conducted
                                            research “with pain, no drugs for relief.” In addition, we selected one
                                            facility in Maryland due to its proximity to the APHIS National Office
                                            and because it had been a repeat violator of the AWA. We visited these
                                            facilities to assess the IACUCs’ protocol processes and to validate the
                                            number of animals reported on their most current annual report.

                                      •     Analyzed Reports From LARIS. During our initial fieldwork, we learned
                                            that AC was developing a new database to replace LARIS. Because of
                                            this, we limited our review of LARIS to issues that came to our attention
                                            through interviews with AC employees and through our own review of
                                            the LARIS reports that we obtained from the AC’s National and regional
                                            offices.

                                      •     Reviewed the Cash Collection Process for Fines Levied Against
                                            Violators. We reviewed internal controls at both IES and FMD, which
                                            collect court penalties and stipulated fines. At IES, we reviewed all
                                            deposit logs for AC-related collections. Because IES did not have
                                            adequate internal controls in place, we expanded our scope to include
                                            cash deposits for Plant Protection and Quarantine and Veterinary
                                            Services to determine the impact of the problem. Also at IES, we
                                            reviewed files for all 18 court decisions and orders requiring collections
46
   We were only able to review 20 IES investigation files and 25 correspondence records because of its 1-year file retention policy. Only files that were
investigated and declined with no action in FY 2004 were available.
47
   For FY 2002-2004, the number of active research facilities averaged 1,100.

USDA/OIG-A/33002-3-SF                                                                                                                     Page 38
                        to determine when they were forwarded to FMD. We selected all
                        available decisions and orders for which penalties had been issued.

                        At FMD, we initially reviewed outstanding AC receivables over $10,000
                        for FYs 2003-2004. However, because FMD did not comply with the
                        Debt Collection Act of 1996, we expanded our scope to include all
                        outstanding receivables for AC fines.

                    This audit was conducted in accordance with generally accepted government
                    auditing standards.




USDA/OIG-A/33002-3-SF                                                              Page 39
Exhibit A – Summary of Monetary Results
                                                                             Exhibit A – Page 1 of 1




 FINDING   RECOMMENDATION
                                     DESCRIPTION                 AMOUNT         CATEGORY
 NUMBER        NUMBER

                                                                             FTBPTBU-
                            AC declined to take enforcement
                                                                 $291,000    Management or
    1              1        action against violators after IES
                            had conducted an investigation.                  Operating
                                                                             Improvement/Savings

                                                                             FTBPTBU-
                            FMD did not transfer delinquent AC
    8              19       receivables to Treasury for          $398,354    Management or
                            collection.                                      Operating
                                                                             Improvement/Savings
TOTAL MONETARY RESULTS                                           $ 689,354




USDA/OIG-A/33002-3-SF                                                                   Page 40
Exhibit B – Sites Visited
                                                         Exhibit B – Page 1 of 1




                     ORGANIZATION                   LOCATION

 APHIS National Offices
   Animal Care                              Riverdale, MD
   Investigative and Enforcement Services   Riverdale, MD


 APHIS Western Regional Office
   Animal Care                              Fort Collins, CO
   Investigative and Enforcement Services   Fort Collins, CO
   Research Facility No. 670                Palo Alto, CA
   Research Facility No. 193                La Jolla, CA
   Research Facility No. 303                Menlo Park, CA
   Research Facility No. 677                Sunnyvale, CA
   Research Facility No. 691                San Diego, CA
   Research Facility No. 699                San Diego, CA
   Research Facility No. 898                Pomona, CA
   Research Facility No. 110                Davis, CA
   Research Facility No. 71                 San Francisco, CA


 APHIS Eastern Regional Office
   Animal Care                              Raleigh, NC
   Investigative and Enforcement Services   Raleigh, NC
   Research Facility No. 47                 Baltimore, MD
   Research Facility No. 208                Brooklyn, NY
   Research Facility No. 255                New York, NY
   Research Facility No. 142                Staten Island, NY
   Research Facility No. 245                Buffalo, NY
   Research Facility No. 88                 Brooklyn, NY
   Research Facility No. 318                Albany, NY


 APHIS Financial Management Division        Minneapolis, MN




USDA/OIG-A/33002-3-SF                                               Page 41
Exhibit C – Research Facilities – Top 50 Violators
                                                                                                                                 Exhibit C – Page 1 of 2


                                            Violations in FY                         Total
                                48
     Research Facility No.              2002      2003      2004                  Violations 49                  State                     Region
                  1                      80        88        88                         256                       RI                         ER
                  2                      75        145       20                         240+                      IL                         ER
                  3                     105         88       24                         217+                      FL                         ER
                 4*                      36        44        93                         173                       MA                         ER
                  5                      72        63        36                         171                       TN                         ER
                  6                       0        57        42                          99                       NY                         ER
                  7                      17         25       48                          90+                      MA                         ER
                  8*                      5        64        11                          80+                      MO                         WR
                  9                      16        40        12                          68                       MA                         ER
                 10                      14        12        30                          56                       CT                         ER
                 11*                     18        30         6                          54                       MA                         ER
                 12                      11        23        20                          54                       PA                         ER
                 13*                      8        20        16                          44                       MA                         ER
                 14*                      7        18        19                          44                       MA                         ER
                 15                       2        12        29                          43                       GA                         ER
                 16*                      9        18        15                          42                       PA                         ER
                 17                       6        17        18                          41                       OK                         WR
                 18                       4        18        17                          39                       MA                         ER
                 19*                      0        21        18                          39                       PA                         ER
                 20                      12        15         9                          36                       PA                         ER
                 21*                      4         25        6                          35                       CA                         WR
                 22*                      8        16        10                          34                       GA                         ER
                 23                       5        11        17                          33                       WI                         ER
                 24                      11        10        12                          33                       PR                         ER
                 25                      18        11         3                          32                       CA                         WR
                 26                       4        10        18                          32+                      MA                         ER
                 27                      16          4       11                          31                       WY                         WR
                 28                      18          3        9                          30+                      CT                         ER
                 29                       3          3       23                          29+                      NY                         ER
                 30                       6         16        7                          29+                      PA                         ER




48
   This information, obtained from LARIS, identifies the facilities with the highest number of violations for the 3-year period; it may not necessarily reflect
those facilities with the most direct violations. All facilities are universities except those noted with asterisks.
49
   Only 9 of the top 50 (indicated with a “+” sign) were referred to IES.

USDA/OIG-A/33002-3-SF                                                                                                                           Page 42
Exhibit C – Research Facilities – Top 50 Violators
                                                                          Exhibit C – Page 2 of 2


                              Violations in FY         Total
  Research Facility No.   2002      2003      2004   Violations   State          Region
           31*              2         6        20       28        CT               ER
           32              5          8        15       28        PA               ER
           33*              2        14        10       26        MA               ER
           34*             17         4         5       26        CT               ER
           35              3         12        11       26        IL               ER
           36              4         18         3       25        MA               ER
           37              5          5        15       25        CT               ER
           38*              8       11         6        25        PA              ER
           39*             6         8        10        24        MA              ER
           40              14        7         3        24        MA              ER
           41               4        7        13        24        CT              ER
           42               7       10         7        24        GA              ER
           43*              3        9        11        23+       NY              ER
           44*              3        6        14        23        CA              WR
           45              6         9        7         22        NJ              ER
           46              6        11        5         22        PA              ER
           47              10       11        1         22        MD              ER
           48*             19        1         1        21        ME              ER
           49               5        9         7        21        MA              ER
           50               4       14         3        21        RI              ER




USDA/OIG-A/33002-3-SF                                                                Page 43
Exhibit D – Stipulation Worksheet
                                    Exhibit D – Page 1 of 1




USDA/OIG-A/33002-3-SF                          Page 44
Exhibit E – Agency Response
                              Exhibit E – Page 1 of 7




USDA/OIG-A/33002-3-SF                    Page 45
Exhibit E – Agency Response
                              Exhibit E – Page 2 of 7




USDA/OIG-A/33002-3-SF                    Page 46
Exhibit E – Agency Response
                              Exhibit E – Page 3 of 7




USDA/OIG-A/33002-3-SF                    Page 47
Exhibit E – Agency Response
                              Exhibit E – Page 4 of 7




USDA/OIG-A/33002-3-SF                    Page 48
Exhibit E – Agency Response
                              Exhibit E – Page 5 of 7




USDA/OIG-A/33002-3-SF                    Page 49
Exhibit E – Agency Response
                              Exhibit E – Page 6 of 7




USDA/OIG-A/33002-3-SF                    Page 50
Exhibit E – Agency Response
                              Exhibit E – Page 7 of 7




USDA/OIG-A/33002-3-SF                    Page 51
